                                SOCIAL SECURITY
MEMORANDUM
Date:   May 07, 2004                                                     Refer To:

To:     James F. Martin
        Regional Commissioner
         Chicago

From: Assistant Inspector General
         for Audit

Subject: Administrative Costs Claimed by the Michigan Disability Determination Services
        (A-05-03-13036)


        The attached final report presents the results of our audit. Our objectives were to
        evaluate the Michigan Disability Determination Services internal controls over the
        accounting and reporting of administrative costs, determine whether costs claimed were
        allowable and properly allocated and funds were properly drawn, and assess the
        electronic data processing general controls environment.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me at
        (410) 965-9700.




                                                S
                                                Steven L. Schaeffer

        Attachment

        cc:
        Lenore Carlson, Associate Commissioner for Office of Disability Determinations
        Jeffrey Hild, Associate Commissioner for Financial Policy and Operations
        Candace Skurnik, Director, Management Analysis and Audit Program Support Staff
        Jo Ellen Luscombe, Disability Program Administrator
        Bill Addison, Audit Liaison, Family Independency Agency
        Marianne Udow, Director, Michigan Family Independence Agency
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



 ADMINISTRATIVE COSTS CLAIMED
  BY THE MICHIGAN DISABILITY
   DETERMINATION SERVICES

     May 2004   A-05-03-13036




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                      Executive Summary
OBJECTIVES
The objectives of our audit were to (1) evaluate the Michigan Disability Determination
Services (MI-DDS) internal controls over the accounting and reporting of administrative
costs, (2) determine whether costs claimed were allowable and properly allocated and
funds were properly drawn, and (3) assess the electronic data processing general
controls environment. Our review included administrative costs claimed by the MI-DDS
for Fiscal Years (FY) 2000 and 2001. At the Social Security Administration’s (SSA)
request, we expanded our audit period and reviewed office space costs claimed by the
MI-DDS through December 2003.

BACKGROUND
Disability determinations under SSA Disability Insurance and Supplemental Security
Income programs are performed by Disability Determination Services (DDS) in each
State or other responsible jurisdictions. Such determinations are required to be
performed in accordance with Federal law and underlying regulations. 1 In carrying out
its obligation, each DDS is responsible for determining claimants’ disabilities and
ensuring that adequate evidence is available to support its determinations. To assist in
making proper disability determinations, the DDS is authorized by SSA to purchase
consultative examinations (CE) to supplement evidence obtained from the claimants’
physicians or other treating sources. SSA authorizes an annual budget to reimburse
the DDS for 100 percent of allowable expenditures.2

The Michigan Family Independence Agency (MI-FIA) is the MI-DDS’s parent agency.
The MI-DDS has offices in Lansing, Detroit, Kalamazoo, and Traverse City, Michigan.

RESULTS OF REVIEW
Our review of administrative costs disclosed that MI-DDS claimed unallowable office
space costs of $1,248,415. We also found that the MI-DDS’s CE rates of payment
exceeded the highest rate paid by Federal or other agencies in the State for the same
or similar type of service, which resulted in related excess payments of $106,070.
Furthermore, internal control improvements were needed to segregate the timekeepers’
duties.




1
    42 U.S.C. § 421; 20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
2
    20 C.F.R. §§ 404.1626 and 416.1026.

Audit of the Administrative Costs Claimed by the Michigan DDS (A-05-03-13036)    i
RECOMMENDATIONS
We recommend that SSA instruct the MI-DDS to refund $1,248,415 in unallowable
office space costs. We also recommend that SSA determine if it was necessary for the
MI-DDS to exceed the highest allowable fees to obtain the CEs we identified with
excess payments. If SSA determines that it was not necessary for the MI-DDS to
exceed the highest allowable rates of payment, it should take appropriate action, such
as instructing the MI-DDS to refund the excess CE payments and limiting future CE
rates of payment. In addition, we recommend that the MI-DDS improve internal controls
over the segregation of timekeepers’ duties.

SSA COMMENTS

In commenting on our draft report, SSA generally agreed with our recommendations
and stated that the MI-DDS inappropriately claimed office space costs. Following the
issuance of our draft report, SSA and the MI-DDS agreed on a space plan that
eliminates the Detroit DDS’s use of 12,000 square feet of office space. SSA suggested
recovery of unallowable office space costs based on the Detroit DDS’s new space plan.
See Appendix C for the full text of SSA’s comments.

MI-FIA COMMENTS

The MI-FIA did not agree with some of our office space findings. Specifically, MI-FIA
stated that the space occupied by the Detroit DDS was necessary and reasonable and
in accordance with Federal criteria. Furthermore, MI-FIA believes SSA was adequately
informed of the amount of space the Detroit DDS would occupy and provided us with
documents in support of its belief. See Appendix D for the full text of MI-FIA comments.

OIG RESPONSE
We remain committed to our recommendations. The evidence presented in our audit
report shows that the MI-DDS claimed office space costs for square footage that
exceeded the amount necessary and reasonable to make disability determinations
under SSA’s disability programs. Also, actions taken by the MI-DDS during the course
of our audit further support that the MI-DDS claimed unallowable office space costs.
Specifically, MI-DDS reimbursed SSA for the costs of about 17,000 square feet of
unnecessary storage space in October 2003, as a result of our preliminary audit
findings. In addition, SSA and MI-DDS recently reached an agreement to eliminate an
additional 12,000 square feet of unnecessary office space at the Detroit DDS. We
reviewed the additional documents provided by MI-FIA that it believes supports that
SSA was informed that Detroit DDS would occupy square footage in excess of that
specified in the spending plan. These documents discuss computer-related issues for
the Detroit DDS’s space, but do not make any specific reference to the amount of
square footage the Detroit DDS would occupy.



Audit of the Administrative Costs Claimed by the Michigan DDS (A-05-03-13036)   ii
                                                                      Table of Contents
                                                                                                                Page

INTRODUCTION ......................................................................................................1

RESULTS OF REVIEW ...........................................................................................2

Office Space Costs....................................................................................................2

Consultative Examination Costs…………………………………………………………..5

Segregation of Duties................................................................................................6

CONCLUSIONS AND RECOMMENDATIONS.........................................................7

OTHER MATTERS ...................................................................................................9

APPENDICES

APPENDIX A – Scope and Methodology

APPENDIX B – Michigan Disability Determination Services Consultative Examination
             Costs

APPENDIX C – Agency Comments

APPENDIX D – Michigan Family Independence Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments




Audit of the Administrative Costs Claimed by the Michigan DDS (A-05-03-13036)
                                                                       Acronyms
Act                          Social Security Act
ASAP                         Automated Standard Application for Payments
CAP                          Cost Allocation Plan
CE                           Consultative Examination
CFR                          Code of Federal Regulations
CMIA                         Cash Management Improvement Act
DDS                          Disability Determination Services
DI                           Disability Insurance
DMB                          Michigan Department of Management and Budget
EDP                          Electronic Data Processing
FIA                          Family Independence Agency
FTE                          Full-Time Equivalents
FY                           Fiscal Year
GAO                          General Accounting Office
HHS                          Department of Health and Human Services
MOU                          Memorandum of Understanding
ODD                          Office of Disability Determinations
OFM, FSG                     Office of Facilities Management, Field Space Group
OMB                          Office of Management and Budget
POMS                         Program Operations Manual System
RRB                          Railroad Retirement Board
SAS                          Space Allocation Standards
SSA                          Social Security Administration
SSA-4513                     State Agency Report of Obligations for SSA Disability
                             Programs
SSI                          Supplemental Security Income
TSC                          Teleservice Center
Treasury                     Department of the Treasury




Audit of the Administrative Costs Claimed by the Michigan DDS (A-05-03-13036)
                                                                          Introduction
OBJECTIVES
The objectives of our audit were to (1) evaluate Michigan Disability Determination
Services (MI-DDS) internal controls over the accounting and reporting of administrative
costs, (2) determine whether costs claimed were allowable and properly allocated and
funds were properly drawn, and (3) assess the electronic data processing general
controls environment. Our review included administrative costs claimed by the MI-DDS
for Fiscal Years (FY) 2000 and 2001. At the Social Security Administration’s (SSA)
request, we expanded our audit period and reviewed office space costs claimed by the
MI-DDS through December 2003.

BACKGROUND
The Disability Insurance (DI) program was established in 1954 under Title II of the
Social Security Act (Act). The program provides benefits to wage earners and their
families in the event the wage earner becomes disabled. The Supplemental Security
Income (SSI) program was created as a result of the Social Security Amendments of
1972 with an effective date of January 1, 1974. SSI (Title XVI of the Act) provides a
nationally uniform program of income to financially needy individuals who are aged,
blind, and/or disabled.

SSA is primarily responsible for implementing policies governing the development of
disability claims under the DI and SSI programs. Disability determinations under both
DI and SSI are performed by Disability Determination Services (DDS) in each State or
other responsible jurisdictions. Such determinations are required to be performed in
accordance with Federal law and underlying regulations.1 In carrying out its obligation,
each DDS is responsible for determining claimants’ disabilities and ensuring that
adequate evidence is available to support its determinations.2 To assist in making
proper disability determinations, each DDS is authorized by SSA to purchase
consultative examinations, such as x-rays and laboratory tests, to supplement evidence
obtained from the claimants’ physicians or other treating sources.3 See Appendix A for
the scope and methodology of our audit.

The Michigan Family Independence Agency (MI-FIA) is the MI-DDS’s parent agency.
The MI-DDS has offices in Lansing, Detroit, Kalamazoo, and Traverse City, Michigan.




1
    42 U.S.C. § 421; 20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.

2
    20 C.F.R. §§ 404.1603(c)(1) and 404.1614(a); 20 C.F.R. §§ 416.1003(c)(1) and 416.1014(a).

3
    20 C.F.R. §§ 404.1614(a) and 404.1624; 20 C.F.R. §§ 416.1014(a) and 416.1024.


Audit of the Administrative Costs Claimed by the Michigan DDS (A-05-03-13036)                   1
                                                    Results of Review
Our review of administrative costs disclosed that MI-DDS claimed unallowable office
space costs of $1,248,415. We also found the MI-DDS’s CE rates of payment
exceeded the highest rate paid by Federal or other agencies in the State for the same
or similar type of service, which resulted in related excess payments of $106,070. In
addition, internal control improvements were needed to segregate the timekeepers’
duties.

We estimate that SSA could realize about $2.7 million in savings over the next 5 years if
it successfully resolves the office space findings disclosed in this report.

OFFICE SPACE COSTS
For the period October 1999 through December 2003, the MI-DDS claimed unallowable
office space costs of $1,248,415. The unallowable costs occurred because the MI-DDS
claimed costs for:

       ¾ Detroit DDS space in the Cadillac Place that exceeded a necessary and
         reasonable amount of square footage.

       ¾ Detroit DDS in the Cadillac Place before the DDS occupied the space.

       ¾ Lansing DDS in the Hannah Building for space not occupied by the DDS.

       ¾ Lansing DDS space in the Ottawa building at a higher square footage rate
         than the rate in effect during that time period.

Office Space Costs at the Cadillac Place
The MI-DDS claimed unallowable costs totaling $1,108,311 during the period of January
2002 through December 2003 for space occupied by the Detroit DDS at the Cadillac
Place. The unallowable costs occurred because the MI-DDS claimed office space costs
for square footage that exceeded the amount necessary and reasonable to make
disability determinations under SSA’s disability programs.

On September 21, 2001, the MI-DDS submitted its FY 2002 annual spending plan to
SSA. The spending plan informed SSA that the MI-DDS’s Detroit DDS would move to a
new location—the Cadillac Place—and occupy 45,629 square feet of space. In January
2002, the Detroit DDS relocated to the Cadillac Place—a State-owned public building.

Prior to relocating to the Cadillac Place, the Detroit DDS occupied office space of
41,936 square feet in the Wayne Executive Plaza. Upon relocation to the Cadillac
Place, Detroit DDS was assigned 86,225 square feet of space, which included
69,063 square feet of office space and 17,162 square feet of storage space. According


Audit of the Administrative Costs Claimed by the Michigan DDS (A-05-03-13036)     2
to SSA, it was not informed that the Detroit DDS would occupy 40,596 square feet of
space more than was specified in the spending plan. The increase in square footage
resulted in a significant increase in the MI-DDS’s space costs reported to SSA.
Accordingly, SSA requested that we expand our audit period and review office space
costs for the MI-DDS through December 2003.

Our audit did not identify any reason for the Detroit DDS to increase the amount of its
office space from the amount reported to SSA in the FY 2002 spending plan.
Specifically, the Detroit DDS did not experience staffing increases that would justify a
need for over 40,000 square feet of additional space.4 In fact, our walk-through of the
Detroit DDS identified unused work stations, unoccupied offices, and unused storage
rooms. According to MI-DDS staff, only one of the three storage rooms were used and
we noted that the room’s contents included broken and obsolete office furniture that
most likely should have been discarded instead of stored. According to the MI-DDS, the
Detroit DDS never used 13,962 of the 17,162 square feet of storage space it was
assigned.

Federal regulations provide, in part, that SSA “…will give the State funds…for
necessary costs in making disability determinations…”5 Office of Management and
Budget (OMB) Circular A-87 states, that in order to be allowable under Federal awards,
costs must, among other things, “...be necessary and reasonable for proper and
efficient performance and administration of Federal awards.”6

The Detroit DDS’ space in excess of the amount reported to SSA in the MI-DDS’s
FY 2002 spending plan—40,596 square feet—was not necessary and reasonable for
the Detroit DDS to perform disability determinations under SSA’s programs.
Furthermore, assigning the Detroit DDS square footage that is not needed to perform
disability determinations under SSA’s programs violates SSA DDS financial
management policy.7 This policy states, “State agencies are expected to exercise
reasonable care in the expenditure of funds required for making SSA disability
determinations.” The policy also requires that these funds be effectively and
economically used in carrying out the provisions of the disability program.

During the course of our audit fieldwork, MI-DDS determined that it should not have
claimed reimbursement from SSA for the 17,162 square feet of storage space.
Accordingly, MI-DDS reimbursed SSA $658,765 for the storage space costs it claimed
from January 2002 through September 2003.



4
 The Detroit DDS had 157 FTEs at the time of its relocation to the Cadillac Place in January 2002. As of
November 2003, the DDS had 169 FTEs.
5
    20 C.F.R. §§ 404.1626 and 416.1026.
6
    OMB Circular A-87, Attachment A, § C.1.a.
7
    Program Operations Manual System (POMS) DI 39506.001.B.1.


Audit of the Administrative Costs Claimed by the Michigan DDS (A-05-03-13036)                   3
In its written comments to the results of our audit, MI-FIA stated that the square footage
occupied by the Detroit DDS in the Cadillac Place was calculated based upon criteria
determined by the Michigan Department of Management and Budget (DMB)—the
agency that manages the Cadillac Place.8 MI-FIA further stated that it had no latitude
regarding space issues in State owned/managed buildings because this responsibility
rested with DMB. MI-FIA also stated that the unique and inefficient internal layout of the
Cadillac Place resulted in a need for more space to accommodate the same number of
staff the Detroit DDS had at its previous location and accordingly, the space was
necessary.

DMB may have the authority in the State of Michigan to determine the location and
amount of space State agencies will occupy. However, DMB’s authority in the State of
Michigan does not preclude the MI-DDS from the requirement that State plans for
physical moves to new space where decentralized offices are involved must be
approved by SSA’s regional office and central office.9 Accordingly, we conclude that
the Detroit DDS claimed office space costs based on 23,434 more square feet than was
necessary or reasonable for the Detroit DDS to make disability determinations for SSA.
This resulted in unallowable office space costs of $1,108,311.10

The MI-DDS also claimed additional unallowable costs of $99,330 for Detroit DDS office
space. Specifically, for November and December 2001, the Detroit DDS claimed office
space costs based on 69,063 square feet of space that it would occupy in the Cadillac
Place. However, the DDS did not relocate to the Cadillac Place until January 2002.
This resulted in space costs being calculated on 27,127 more square feet of space than
the DDS actually occupied in the Plaza Building.11

Office Space Costs at the Hannah Building
The MI-DDS claimed unallowable costs totaling $37,978 for space not occupied by the
Lansing DDS. The Lansing DDS occupied 11,184 square feet of space in the Ottawa
Building through May 2003. However, from July 2002 through May 2003, the MI-DDS
claimed reimbursement from SSA based on 13,742 square feet, or 2,558 more square
feet of space than the DDS actually occupied. This occurred because the MI-DDS
claimed costs for space the Lansing DDS would eventually occupy in the Hannah
building while the building was under construction rather than the space actually


8
 In lieu of a formal exit conference, MI-FIA provided us written comments on the results of our audit
which were dated January 9, 2004.
9
    POMS DI 39527.010.A.

10
  40,596 (square feet occupied by the DDS in excess of the amount reported in the FY 2002 spending
plan) less 17,162 (reduction in square footage assigned to the DDS) equals 23,434 square feet.

11
  Detroit DDS occupied 41,936 square feet of space in the Plaza Building (69,063 less 41,936 equals
27,127).


Audit of the Administrative Costs Claimed by the Michigan DDS (A-05-03-13036)                     4
occupied in the Ottawa Building. The Lansing DDS did not relocate to the Hannah
Building until June 2003.

Office Space Costs at the Ottawa Building
The MI-DDS claimed unallowable costs of $2,796 for the Lansing DDS’s space in the
Ottawa Building. During FY 2001, the Lansing DDS occupied 11,184 square feet of
space in the Ottawa building. For the first 10 months in FY 2001, the Lansing DDS was
charged $14.64 per square foot for its space in the Ottawa building. However, for the
last two months in FY 2001 (August and September 2001), the MI-DDS was charged
$16.14 per square foot – an additional $1.50 per square foot. We did not find the two-
month rate increase for the Lansing DDS to be reasonable since the square footage
rate published by DMB for the Ottawa Building was $14.64 for all FY 2001.

CONSULTATIVE EXAMINATION COSTS
For FYs 2000 and 2001, we found that the MI-DDS reimbursed medical providers at
payment rates in excess of the maximum rates paid by Federal or other agencies in the
State. The related excess payments totaled $106,070. Federal regulations require that
each State determine the payment rates for medical or other services necessary to
make determinations of disability. The rates may not exceed the highest rate paid by
Federal or other agencies in the State for the same or similar type of service.12 The
State is responsible for monitoring and overseeing the rates of payment for medical and
other services to ensure that the rates do not exceed the highest rate paid by Federal or
other agencies in the State.13

We compared the rates paid by Medicare and the Railroad Retirement Board (RRB)
with the fees paid by the MI-DDS for its x-rays, laboratory tests, and other medical
services.14 We found that MI-DDS used payment rates that exceeded the highest
allowable rates, which resulted in excess payments totaling $106,070 (see Appendix B).
Our comparison also disclosed that the payment rate for one CE—Bayley Scales15—
was significantly higher than the highest allowable rate (Medicare). In fact, the MI-DDS
payments related to the Bayley Scales accounted for over 85 percent of the total
payments that exceeded the highest allowable rates of payment during FYs 2000 and
2001.



12
     20 C.F.R. §§ 404.1624 and 416.1024.

13
     20 C.F.R. §§ 404.1519k and 416.919k.

14
  In setting its CE fees, the MI-DDS used the fees paid by Medicare and RRB. In our comparison of the
MI-DDS’s CE fees, we used the highest fee paid by either Medicare or RRB.

15
 The Bayley Scales CE is a psychological test. The MI-DDS compared the Bayley Scales CE to the
American Medical Association’s Current Procedural Terminology code 96100.


Audit of the Administrative Costs Claimed by the Michigan DDS (A-05-03-13036)                 5
MI-DDS staff stated that it was necessary to exceed the highest allowable rates of
payment for some CEs to obtain the services. For example, MI-DDS stated that
medical providers were unwilling to perform the Bayley Scales CE at the fee allowed by
Medicare. We did not confirm this information. SSA staff in the Chicago Regional
Office told us that they were unaware that the MI-DDS reimbursed medical providers at
payment rates in excess of the highest rate paid by Federal or other agencies in the
State for the same or similar service.

For the CEs we identified that exceeded the highest allowable rates of payment, we
recommend that SSA determine if it was necessary for the MI-DDS to exceed the
highest allowable fees to obtain the services. If SSA determines that it was not
necessary for the MI-DDS to exceed highest allowable rates of payment, it should take
appropriate action, such as instructing the MI-DDS to refund the excess CE payments
and limiting future CE rates of payment.16

SEGREGATION OF DUTIES
The MI-DDS’ timekeepers record their own time and attendance. This practice is
prohibited by MI-FIA policy.17 Our review did not disclose any improprieties resulting
from the lack of segregation of duties in the timekeeping function. However, this lack of
controls results in an environment susceptible to fraud and abuse. The General
Accounting Office (GAO) Standards for Internal Controls in the Federal Government
states, “No one individual should control all key aspects of a transaction or event.” The
GAO standards further state that “[k]ey duties and responsibilities need to be divided or
segregated among different people to reduce the risk of error or fraud. This adequate
separation of duties should include separating the responsibilities for authorizing
transactions, processing and recording them, reviewing the transactions, and handling
any related assets.”18




16
  In its comments to our draft report, SSA agreed with our recommendation. See Appendix B for
additional information related to our recommendation.

17
  Michigan Department of Social Services Administrative Handbook, Item 633.3, Page 4. Subject:
Timekeeping Biweekly Totals Area. (Adm. Hbk. 89-14, Rev. 12-19-89, Eff. 2-18-90).

18
  GAO Standards for Internal Controls in the Federal Government-AIMD-00-21.3.1, Page 14 (November
1999).


Audit of the Administrative Costs Claimed by the Michigan DDS (A-05-03-13036)                   6
                                                    Conclusions and
                                                   Recommendations
Our review of administrative costs disclosed that MI-DDS charged unallowable office
space costs of $1,248,415 to SSA. We also found that the MI-DDS’s CE rates of
payment exceeded the highest rate paid by Federal or other agencies in the State for
the same or similar type of service, which resulted in related excess payments of
$106,070. Furthermore, internal control improvements were needed in the segregation
of timekeeper duties.

We recommend that SSA:

1. Instruct the MI-DDS to refund $1,248,415 for unallowable office space costs.

2. Instruct the MI-DDS to claim future office space costs for the Detroit DDS based on
   reasonable and necessary square footage amounts that are approved by SSA.

3. Determine if it was necessary for the MI-DDS to exceed the highest allowable fees
   to obtain the CEs we identified with excess payments. If SSA determines that it was
   not necessary for the MI-DDS to exceed the highest allowable rates of payment, it
   should take appropriate action, such as instructing the MI-DDS to refund the excess
   CE payments and limiting future CE rates of payment.

4. Instruct the MI-DDS to establish alternate timekeepers to ensure that the primary
   timekeepers do not maintain their own time and leave records.

SSA COMMENTS

In commenting on our draft report, SSA generally agreed with our recommendations
and stated that the MI-DDS inappropriately claimed office space costs. Following the
issuance of our draft report, SSA and the MI-DDS agreed on a space plan that
eliminates the Detroit DDS’s use of 12,000 square feet of office space. SSA suggested
recovery of unallowable office space costs based on the Detroit DDS’s new space plan.
See Appendix C for the full text of SSA’s comments.

MI-FIA COMMENTS

The MI-FIA did not agree with some of our office space findings. Specifically, MI-FIA
stated that the space occupied by the Detroit DDS was necessary and reasonable and
in accordance with Federal criteria. Furthermore, MI-FIA believes SSA was adequately
informed of the amount of space the Detroit DDS would occupy and provided us with
documents in support of its belief. See Appendix D for the full text of MI-FIA comments.



Audit of the Administrative Costs Claimed by the Michigan DDS (A-05-03-13036)     7
OIG RESPONSE
We remain committed to our recommendations. The evidence presented in our audit
report shows that the MI-DDS claimed office space costs for square footage that
exceeded the amount necessary and reasonable to make disability determinations
under SSA’s disability programs. Also, actions taken by the MI-DDS during the course
of our audit further support that the MI-DDS claimed unallowable office space costs.
Specifically, MI-DDS reimbursed SSA for the costs of about 17,000 square feet of
unnecessary storage space in October 2003, as a result of our preliminary audit
findings. In addition, SSA and MI-DDS recently reached an agreement to eliminate an
additional 12,000 square feet of unnecessary office space at the Detroit DDS. We
reviewed the additional documents provided by MI-FIA that it believes supports that
SSA was informed that Detroit DDS would occupy square footage in excess of that
specified in the spending plan. These documents discuss computer-related issues for
the Detroit DDS’s space, but do not make any specific reference to the amount of
square footage the Detroit DDS would occupy.




Audit of the Administrative Costs Claimed by the Michigan DDS (A-05-03-13036)   8
                                                              Other Matters
As discussed on Page 2 of this report, the Detroit DDS moved to a new location—the
Cadillac Place—in January 2002. We found that SSA did not follow its own policies
related to the Detroit DDS’ relocation. Specifically, SSA is required to do the following
prior to approving a DDS’s relocation to new office space:

      •   Both the regional office and the central office must review and approve any State
          plans for physical moves to new space where decentralized offices are
          involved.19

      •   Allow a maximum of 150 square feet of space per full-time equivalent (FTE).20

According to SSA, the only documentation it reviewed prior to the Detroit DDS’
relocation was the information provided by the MI-DDS in its FY 2002 spending plan.
The spending plan simply stated that the Detroit DDS would occupy 45,629 square feet
of space at its new location. SSA did not review any State plans or documentation that
would allow them to evaluate the necessity of the Detroit DDS’ space in the Cadillac
Place. If SSA had followed the POMS guidance, the excessive space now occupied by
the Detroit DDS would have been identified and the unallowable space costs identified
in our audit report would have been avoided prior to the DDS’ relocation.

SSA informed us that it does not hold DDS’ accountable to the maximum of 150 square
feet of space per FTE outlined in POMS. According to SSA’s Office of Disability
Determinations (ODD), the office space guidance in POMS is outdated because it does
not account for the additional space that is needed to accommodate items, such as
personal computers. ODD stated that it is in the initial stages of updating the POMS
instructions for DDS space.

Upon relocating to the Cadillac Place in January 2002, the Detroit DDS had 157 FTEs.
If SSA held the DDS to the maximum of 150 square feet of space per FTE, the Detroit
DDS would have been limited to claiming reimbursement on 23,550 square feet of office
space instead of 86,225 square feet. And, office space costs charged to SSA for the
Detroit DDS would have been $2.9 million less for the period January 2002 through
December 2003.

To further illustrate the extent of excessive square footage occupied by the Detroit DDS,
we compared the amount of space assigned to the Detroit DDS to the amount of space
occupied by an SSA component with comparable FTEs, the Los Angeles Teleservice
Center (TSC). We found that the Detroit DDS occupied more than three times the
amount of space per FTE than the Los Angeles TSC. The Los Angeles TSC’s

19
     POMS DI 39527.010.A.

20
     POMS DI 39527.050.D.5.


Audit of the Administrative Costs Claimed by the Michigan DDS (A-05-03-13036)       9
200 FTEs occupied 33,543 square feet of space or 168 square feet of space per FTE.
In comparison, the Detroit DDS’ 157 FTEs occupied 86,225 square feet of space or
549 square feet of space per FTE. The Los Angeles TSC’s space is based on SSA’s
Space Allocation Standards (SAS). The SAS are used to determine the amount of
space allowable for SSA office locations outside of the Baltimore, Maryland
Headquarters. In general, the SAS allows between 125 to 150 square feet of space per
FTE for SSA office locations. The SAS also allows additional square footage for
interview rooms and training rooms. Although the operations of a DDS and a TSC may
differ somewhat, their space requirements should be comparable.

SSA needs to establish DDS space allocation standards and they should be
comparable to the standards used to determine the allowable space for SSA
components. Once the standards are in place, SSA may want to consider having the
space experts in the Regional Offices’ Field Services Division review DDS space
allocation plans and supporting documentation before the space is approved.




Audit of the Administrative Costs Claimed by the Michigan DDS (A-05-03-13036)   10
                                            Appendices




Audit of the Administrative Costs Claimed by the Michigan DDS (A-05-03-13036)
                                                                          Appendix A

Scope and Methodology
SCOPE
To achieve our objective, we:

•   Reviewed applicable Federal regulations, pertinent parts of Program Operations
    Manual System DI 39500 DDS Fiscal and Administrative Management, and other
    instructions pertaining to administrative costs incurred by Michigan Disability
    Determination Services (MI-DDS) and the draw down of Social Security
    Administration (SSA) funds.

•   Interviewed State of Michigan internal auditors who performed the Michigan single
    audit. Because of the limited scope of the single audit work performed at MI-DDS,
    we did not rely on the single audit work.

•   Interviewed staff at MI-DDS, Michigan Family Independence Agency (MI-FIA),
    Michigan Department of Management and Budget, and SSA Regional Office,
    Chicago, Illinois.

•   Reviewed State policies and procedures related to personnel, medical services, and
    all other nonpersonnel costs.

•   Reviewed the Memorandum of Understanding between SSA and the MI-FIA for non-
    SSA work.

•   Evaluated and tested internal controls regarding accounting and financial reporting
    and cash management activities.

•   Reviewed the reconciliation of official State accounting records to the administrative
    costs reported by MI-DDS on the Form SSA-4513 for Fiscal Years (FY)
    2000 through 2001.

•   Reviewed the administrative costs MI-DDS reported on its Form SSA-4513 for
    FYs 2000 through 2001. SSA was concerned about office costs for the MI-DDS, so
    we expanded the audit period to include office space costs claimed by MI-DDS for
    FYs 2000 through 2003 (December 2003).

•   Examined the administrative expenditures (personnel, medical service, and all other
    nonpersonnel costs) incurred and claimed by MI-DDS for FYs 2000 through 2001 on
    the Form SSA-4513. We used statistical sampling to select documents to test for
    support of the medical service and all other nonpersonnel costs.


Audit of the Administrative Costs Claimed by the Michigan DDS (A-05-03-13036)          A-1
•   Examined workers compensation costs claimed by the MI-DDS for FYs 2000
    through 2002.

•   Examined leave settlement costs claimed by MI-DDS for the last quarter of
    FY 2002 through the first quarter of FY 2003.

•   Examined the indirect costs claimed by MI-DDS for FYs 2000 through 2001 and the
    corresponding MI-FIA Cost Allocation Plans (CAP).

•   Compared the amount of SSA funds drawn for support of program operations to the
    expenditures reported on the Form SSA-4513.

•   Discussed indirect costs issues with the Department of Health and Human Services
    Division of Cost Allocation, Chicago, Illinois.

•   Reviewed MI-DDS electronic data processing general controls and physical security
    at selected offices in Lansing and Detroit, Michigan.

We concluded that the electronic data used in our audit was sufficiently reliable to
achieve our audit objectives. We assessed the reliability of the electronic data by
reconciling it with the costs claimed on the Form SSA-4513. We also conducted
detailed audit testing on selected data elements in the electronic data files.

We performed work at the MI-DDS offices in Lansing and Detroit, Michigan, the MI-FIA
office in Lansing, MI and the SSA Regional Office in Chicago, Illinois. We conducted
field work from October 2002 through October 2003. The audit was conducted in
accordance with generally accepted government auditing standards.

METHODOLOGY
Our sampling methodology encompassed the four general areas of costs as reported on
Form SSA-4513: (1) personnel; (2) medical; (3) indirect; and (4) all other nonpersonnel
costs. We obtained computerized data from MI-FIA for Fiscal Years (FY) 2000 and 2001
for use in statistical sampling. In addition, we obtained data supporting indirect costs
claimed for FY 2000 through FY 2001.

Personnel Costs

We judgmentally sampled 20 MI-DDS employees and 20 Medical consultants from
2 judgmentally selected pay periods in FY 2000 and 2001. We tested the payroll
records to ensure individuals were paid correctly and payroll was adequately
documented.




Audit of the Administrative Costs Claimed by the Michigan DDS (A-05-03-13036)          A-2
Medical Costs

We sampled 100 items (50 items each from FYs 2000 and 2001) using a stratified
random sample. We stratified medical costs into Medical Evidence of Record and
Consultative Examinations (CE), selecting more CE invoices, because CE costs
represented 71 percent of all medical costs.

Indirect Costs

We conducted a 100-percent review of indirect costs. Our objective was to ensure the
Social Security Administration reimbursed MI-DDS in compliance with the State CAP. For
FYs 2000 and 2001, we judgmentally sampled various types of expenditures used to
allocate the indirect costs.

All Other Nonpersonnel Costs

We selected a stratified random sample of 100 items (50 expenditures each from
FYs 2000 and 2001) of All Other Nonpersonnel costs. We stratified All Other
Nonpersonnel costs into eight cost categories: (1) Applicant Travel; (2) Staff Travel;
(3) Communications; (4) Equipment, (5) Supplies; (6) Contracting Out; (7) Miscellaneous;
and (8) Occupancy. We selected a stratified random sample of 50 items from each FY
based on the percentage of costs in each category (excluding occupancy) to total costs.
We also performed a 100 percent review of occupancy expenditures for the MI-DDS from
October 1999 through December 2003 at the request of the Chicago Regional Office.




Audit of the Administrative Costs Claimed by the Michigan DDS (A-05-03-13036)    A-3
                                                                                 Appendix B

Michigan Disability Determination Services (MI-DDS)
Consultative Examination (CE) Costs
                                     Fiscal Year 2000
                                                Difference                       Amount in
                                                 Between                         Excess of
                                Highest      MI-DDS Fee and                       Highest
           CE MI-DDS           Allowable         Highest      Number of          Allowable
          Code1  Fee              Rate       Allowable Rate Exams                   Rate
          96100 $180.00            $94.40              $85.60      609           $52,130.40
          85031   11.00              9.00                2.00      595              1,190.00
          80053   26.00             14.39               11.61      543              6,304.23
                                                                  Total          $59,624.63

                                     Fiscal Year 2001
                                                Difference                        Amount in
                                                 Between                          Excess of
                                Highest      MI-DDS Fee and                      the Highest
           CE MI-DDS           Allowable       the Highest Number of              Allowable
          Code   Fee              Rate       Allowable Rate Exams                    Rate
          96100 $180.00            $94.40              $85.60   481               $41,173.60
          85031   11.00              9.00                2.00   436                    872.00
          80053   26.00             14.39               11.61   379                  4,400.19
                                                               Total              $46,445.79




1
  In its comments to our draft report, SSA stated that the MI-DDS provided documentation/information
which showed that it was necessary to exceed the highest allowable rate in order to purchase the Bayley
Scales CE (Code 96100). However, SSA did not specifically comment on the remaining CE codes we
identified with excess payments (Codes 85031 and 80053). On May 4, 2004, we asked SSA if they
concurred with our recommendation as it relates to these two CE codes. SSA stated that it agreed with
our recommendation and plans to determine if it was necessary for the MI-DDS to exceed the highest
allowable rates to obtain CEs under these two codes.

Audit of the Administrative Costs Claimed by the Michigan DDS (A-05-03-13036)
                                                                          Appendix C

Agency Comments




Audit of the Administrative Costs Claimed by the Michigan DDS (A-05-03-13036)
           From: Jamison, Jim
           Sent: Monday, April 12, 2004 2:57 PM
           To: Schaeffer, Steve
           Cc: ||CHI ORC; ||CHI ARC MOS; ||CHI ARC MOS CD; ^DCO Audit; ^DCDISP Audit; ^DCFAM Controls;
           Wallace, Rusty; Wise, Ray; Schaefer, Karen; Jamison, Jim
           Subject: Michigan Admin Audit draft report.dot -- OIG #A-05-03-13036

           The memorandum below contains the Region's comments on the subject report.



 MEMORANDUM

 Date:                                                                             Refer To: S2D5G2
           Refer


 To:       Assistant Inspector General
           for Audit

 From:     Regional Commissioner
           Chicago

Subject:   Administrative Costs Claimed by the Michigan Disability Determination Services (Your Request
           for Comments Dated March 22, 2004) -- REPLY


           Attached are the Region's comments on the subject draft report (A-05-03-13036).

           We appreciate OIG's willingness to honor our request at the opening conference to focus
           particular attention on the recent space actions in the DDS, and to expand the time period of the
           audit of space costs through December 2003. A State government directive required the
           relocation of the DDS office in Detroit to space that was ill-suited for their needs. This decision
           was made without input from either the DDS or the Chicago Regional Office. Additionally, we
           understand that, at least in the initial phases of the audit, the State Agency responsible for
           building management was less than cooperative. SSA's administrative guideline concerning
           DDS space allocation which limits States to 150 square feet (sq. ft.) of net space per full-time
           equivalent is outdated. This compounded the problems faced by the audit team and left the
           definition of reasonable space very much in question. We have worked closely with the DDS to
           reduce the size of the Detroit space and with our Headquarters staff to develop space
           guidelines that more accurately reflect the current workplace environment. We are pleased
           that as a result of your audit the State has already reimbursed SSA for 17,162 sq. ft. of storage
           space and is in the process of vacating an additional 11,961 sq. ft. of office space in Detroit.

           Thank you for the opportunity to comment on the draft findings and recommendations.


           Questions about this memorandum may be directed to Jim Jamison, Financial Management
           Team Leader, at 312-575-4212.


           Audit of the Administrative Costs Claimed by the Michigan DDS (A-05-03-13036)              C-1
                                                /s/
                                           James F. Martin


Attachment


cc:    Deputy Commissioner for Operations
       Deputy Commissioner for Finance Assessment and Management


                                                                                       Attachment

Comments on findings/recommendations included in draft report "Administrative Costs Claimed
by the Michigan Disability Determination Services (MI-DDS), OIG Audit No. A-05-03-13036":


1. Finding/Recommendation: Instruct the MI-DDS to refund $1,248,415.00 for
   unallowable office space costs.

      We agree that the MI-DDS inappropriately claimed costs for office space in FYs 2002-2004
      (through December 2003). The State has also informally agreed with the finding as it
      relates to the questionable charges for the Hannah ($37,978.00) and Ottawa ($2,796.00)
      buildings and for the secondary finding of claiming the higher rent costs at the Cadillac
      building 2 months prior to the actual relocation to that space ($99,330.00). However, we
      believe the primary finding of questionable charges concerning the Cadillac building
      ($1,108,311.00) should be modified.

      From January 2002 through February 2004, the DDS occupied 69,063 sq. ft. of the Cadillac
      building. The DDS did not seek SSA approval for this square footage, but justified the need
      for this amount of space based on the building's inefficient layout and projections that would
      increase the number of employees from 199 to 272. OIG's finding is based on limiting the
      allowable square footage in the Cadillac building to 45,629 sq. ft., the amount of footage
      indicated in the DDS's annual spending plan request for FY 2002.

      We support the MI-DDS's contention that the "footprint" of the Cadillac building is
      inefficient. Construction of the building was completed in 1923. The layout, eight long and
      narrow wings connected by a central hallway, was designed to make maximum use of
      natural light and window ventilation. It is ill-suited to house a modern office environment
      without a significant amount of wasted (non-usable) space. Additionally, we acknowledge
      that SSA's administrative guideline concerning reasonable office space (maximum net
      space of 150 sq. ft. per FTE) is obsolete. We cannot support, however, the DDS's
      projection of increased staff. We did not provide the DDS this information, and have no
      knowledge of any documentation that would support the level of staffing used by the DDS in
      formulating their space needs.




Audit of the Administrative Costs Claimed by the Michigan DDS (A-05-03-13036)                C-2
   At our request, the DDS reassessed its space needs in Detroit. As a result, a plan was
   implemented in March to consolidate staff and eliminate the use of 12,000 sq. ft. of office
   space. We are aware that the remaining 57,063 sq. ft. of total (usable and non-usable)
   office space for 169 employees still significantly exceeds both SSA's guidelines and the
   DDS's FY 2002 spending plan projection. However, the administrative guideline of 150 sq.
   ft. per FTE does not adequately address current space needs. Considering this issue, along
   with the inefficiencies inherent in the design of the Cadillac building, we believe the use of
   57,063 sq. ft. in total office space is a necessary and reasonable expense for the MI-DDS.
   Further, we believe this approved level of square footage can be applied retroactively to
   determine the amount of reasonable and necessary space for the Detroit MI-DDS for the
   period covered by this audit.

   Based on the revised allowable square footage in the Detroit DDS (Cadillac Building), the
   unallowable charges for office space should be recalculated as follows:

                                      OIG         SSA
     CADILLAC BUILDING            UNALLOWABLE UNALLOWABLE DIFFERENCE
     Jan. 2002 - Sept. 2002            $386,134    $197,730   $188,404
     Oct. 2002 - Sept. 2003            $585,381    $299,760   $285,621
     Oct. 2003 - Dec. 2003             $136,796     $70,050    $66,746

              TOTALS                     $1,108,311            $567,540          $540,771

   In summary, we support a finding that would instruct the MI-DDS to refund a total of
   $707,644.00 for unallowable office space costs (Cadillac, Hannah, and Ottawa buildings).


2. Finding/Recommendation: Instruct the MI-DDS to claim future office space costs for
   the Detroit DDS based on reasonable and necessary square footage amounts that are
   approved by SSA.

   We agree with this recommendation and have been working closely with the MI-DDS to
   reduce the square footage of the Detroit office. As mentioned previously, DDS actions last
   month and this month will result in a significantly "downsized" office space. Given the
   unique (and inefficient) "footprint" of this 80-year old structure, we have found the remaining
   square footage occupied by the Detroit DDS (approximately 57,000 sq. ft. of total office
   space) to be reasonable and necessary. SSA's Central Office staff has been advised of
   this determination. Also, the MI-DDS has been reminded that the Regional Commissioner
   must review and approve all new/renewed lease agreements and relocations for
   decentralized DDSs.


3. Finding/Recommendation: Determine if it was necessary for the MI-DDS to exceed
   the highest allowable fees to obtain the CEs we identified with excess payments. If
   SSA determines that it was not necessary for the MI-DDS to exceed the highest
   allowable rates of payment, it should take appropriate action, such as instructing the
   MI-DDS to refund the excess CE payments and limiting future CE rates of payment.




Audit of the Administrative Costs Claimed by the Michigan DDS (A-05-03-13036)               C-3
   We agree that the DDS is required to maintain documentation that the rate of payment for
   medical evidence and CE's does not exceed the highest rate paid by Federal or public
   agencies in the State for the same or similar services [20 CFR 404.1519K (a)]. We also
   agree that in this instance the MI-DDS had not followed the regulations and had not
   requested any waiver or exception from these requirements

   However, we do believe there are several valid reasons for medical fees to exceed the
   Medicare reimbursement rate, and note that this issue has previously been addressed by
   the Agency. In OIG Audit No. A-07-99-21004 (Appendix D - Agency Comments) the Acting
   Commissioner stated, "We disagree with the assertion in the Executive Summary that
   medical services provided for Medicare and DDSs are the same or very similar and that
   there is no reason for DDSs to reimburse medical providers at fees higher than those
   allowed by Medicare". There are several reasons for higher reimbursement rates:

       ∗   The nature of the "service" differs (reimbursement for medical treatment versus
           evaluation of disability);
       ∗   The price-setting mechanism differs (Medicare reimbursements have been limited by
           Congressional action in recent years; marketplace considerations may affect CE
           costs);
       ∗   SSA may reasonably pay a higher price for a CE in order to get fast and reliable
           medical information to process a medical determination;
       ∗   States may use other public (Federal or State) fee schedules.

   To determine if it was necessary for the MI-DDS to establish fees which exceed the highest
   allowable rate of payment, we asked the DDS to provide rationale and/or documentation
   supporting this rate if they felt it was appropriate. The DDS has now provided us with
   information on the efforts they made to secure Bayley studies at a lower rate. The DDS had
   two CE sources that traveled to Michigan's Upper Peninsula (UP) to do these studies for a
   fee of $180. When the DDS lowered the payment to $130 in January 2002, both sources
   indicated they would sever their relationship with the DDS. Even though the DDS agreed to
   continue paying these two sources $180, one of the providers in the UP has stopped doing
   CE's indicating that even at the higher fee the DDS overall reimbursement rates including
   travel were insufficient to cover out-of-pocket expenses. To lower rates further would not
   only inconvenience our claimants but, in some cases, result in travel costs to other locations
   that would make the cost to the DDS higher than the rate questioned by OIG.
   We have reminded the DDS staff that proper documentation (e.g., a printout of the State
   component or Medicare fee schedule) should be maintained in the DDS.


4. Instruct the MI-DDS to establish alternate timekeepers to ensure that the primary
   timekeepers do not maintain their own time and leave records.

   We agree with this recommendation and will instruct the DDS to establish procedures, or
   modify existing procedures to eliminate this practice, and help safeguard the payroll process
   from fraud and abuse.




Audit of the Administrative Costs Claimed by the Michigan DDS (A-05-03-13036)             C-4
                                                                          Appendix D

Michigan Family Independence Agency
Comments




Audit of the Administrative Costs Claimed by the Michigan DDS (A-05-03-13036)
                      Responses to Office of The Inspector General
                                        Audit of
                            Administrative Costs Claimed
                              By the Michigan Disability
                                Determination Services



Detroit DDS Space in the Cadillac Place that Exceeded a Necessary and
Reasonable Amount of Square Footage

We disagree with the finding.

We request that this finding be eliminated from the report. We believe the finding is without
merit and is not supported by the criteria cited in the report.

Throughout the finding, various federal criteria are used to justify the auditor’s position. In
responding to this finding, we have separated the two major points mentioned in Circular A-87
as reasonable and necessary. Next, we have presented audit evidence that supports our position
that we did contact the Social Security Administration concerning the additional square footage
usage.

Circular A-87 Criteria-Reasonable

The finding cites Circular A-87 as criteria for disallowing the cost. We believe that the Circular
has been misinterpreted and manipulated to justify the auditor’s position.

The auditors cite Circular A-87 as follows:

       Federal regulations provide, in part, that SSA “…will give the State funds…for
       necessary costs in making disability determinations… OMB Circular A-87 states,
       that in order to be allowable under Federal awards, costs must, among other things,
       “...be necessary and reasonable for proper and efficient performance and
       administration of Federal awards.”




Audit of the Administrative Costs Claimed by the Michigan DDS (A-05-03-13036)              D-1
Circular A-87 defines reasonable cost as:

“A cost is reasonable if, in its nature and amount, it does not exceed that which would be
incurred by a prudent person under the circumstances prevailing at the time the decision was
made to incur the cost.”

We believe that had the auditors compared the per person facility cost or any other cost
comparisons to house the DDS employees, they would have found that FIA charged the cost
“prevailing at the time the decision was made to incur the cost.”

Our conclusion in reviewing this portion of the finding as it relates to Circular A-87 is that the
cost is reasonable to perform disability determinations (no audit evidence is presented to the
contrary).

Circular A-87 Criteria-Necessary

The finding makes several unsubstantiated conclusions in an attempt to support the position that
DDS was allocated excessive square footage.

Throughout the finding there is a comparison between the 41,963 square feet
occupied by DDS in the Wayne Executive Plaza with the 69,063 square feet used in
the Cadillac Place. From these two numbers a conclusion is drawn that since one number is
larger than the other, the larger number must be unnecessary usage!

To our knowledge, there was no audit work performed to determine whether the 41,963 square
feet was insufficient space to house the DDS staff in the Wayne Executive Plaza. Also, to our
knowledge, there was no audit work performed to determine whether the additional 23,434
square feet used in the Cadillac Place was too large or unnecessary to house DDS staff in the
Cadillac Place. There was no square foot per person comparison; no comparison of DDS usage
with other federally funded programs. In fact, the audit report does not state any criteria to prove
unnecessary square footage usage. Instead the auditors reported “negative assurance” (an audit
term meaning nothing came to my attention) when they state… “Our audit did not identify any
reason for the Detroit DDS to increase the amount of its office space from the amount reported to
SSA in the FY 2002 spending plan.” If no review or audit testing is performed, an auditor can
make this statement of negative assurance.

In the audit process, it is the auditor’s responsibility to prove noncompliance with regulations. In
this situation, it has not been demonstrated that any noncompliance occurred related to the
additional 23,434 square footage utilized, except that the square footage currently used is larger
than what was used in the past.

Our conclusion in reviewing this portion of the finding as it relates to Circular A-87 is that the
square footage space was necessary (no audit evidence is presented to the contrary).




Audit of the Administrative Costs Claimed by the Michigan DDS (A-05-03-13036)               D-2
Contacting Social Security Administration Concerning the Additional Square Footage Usage

Throughout the report reference is made that FIA did not contact the SSA to inform them of the
additional square footage usage.

       The report states… “According to SSA, it was not informed that the Detroit DDS
       would occupy 40,596 square feet of space more than was specified in the
       spending plan.”

Please review the attached documents that cite communications from FIA to SSA concerning the
additional space.

Based on these documented communications we believe that SSA was informed of the additional
space. Therefore, we believe that this is sufficient audit evidence to support our position that this
finding should be eliminated from the report.



Detroit DDS in the Cadillac Place Before the DDS Occupied the
Space

We agree and have taken steps to correct the situation.


Lansing DDS in the Hannah Building for Space Not Occupied

We agree and have taken steps to correct the situation.


Office Space Cost at the Ottawa Building
We agree and have taken steps to correct the situation.


Consultative Examination Cost
We agree and have taken steps to correct the situation.


Segregation of Duties
We agree and have taken steps to correct the situation.




Audit of the Administrative Costs Claimed by the Michigan DDS (A-05-03-13036)                D-3
                                                                          Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts
       Mark Bailey, Director, Central Audit Division, (816) 936-5591

       Teresa Williams, Audit Manager, (312) 353-0331

Acknowledgments
In addition to those named above:

       Lorrie Clement, Senior Auditor

       Elizabeth Juarez, Auditor

       Sherman Doss, Auditor

       Anthony Lesniak, Auditor

       Cheryl Robinson, Writer/Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-05-03-13036.




Audit of the Administrative Costs Claimed by the Michigan DDS (A-05-03-13036)
                                 DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
